U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Deangelo Lendard Johnson v. United States of America
S.Ct. No. 21-5432
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 17,
2021, and placed on the docket on August 20, 2021. The government’s response is due on
September 20, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 20, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5432
JOHNSON, DEANGELO LENARD
USA

ADEEL MOHAMMAD BASHIR
OFFICE OF THE FEDERAL DEFENDER FOR
THE MIDDLE DIST.
400 N. TAMPA STREET
STE. 2700
TAMPA, FL 33602
703-835-3929
ADEEL_BASHIR@FD.ORG

